APPENDIX

23092.3

TABLE OF CONTENTS
Appendix A: Court of appeals opinion,
June 4, 2019 ................................................. 1a
Appendix B: District court order and opinion,
Jan. 9, 2018 ................................................ 19a
Appendix C: District court order denying
reconsideration,
Mar. 14, 2018 ............................................. 30a
Appendix D: Statutory and regulatory
provisions .................................................. 33a

23092.3

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-20228
ALI EKHLASSI,
Plaintiff-Appellant,
v.
NATIONAL LLOYDS INSURANCE COMPANY,
Defendant-Appellee.
Filed: June 4, 2019
Appeal from the United States District Court
for the Southern District of Texas
Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.
OPINION
RHESA HAWKINS BARKSDALE, Circuit Judge:
Ali Ekhlassi challenges the summary judgment
awarded National Lloyds Insurance Company pursuant
to the National Flood Insurance Act (the Act), 42 U.S.C.
§§ 4001 et seq. Primarily, at issue are: whether 42 U.S.C.
§ 4072 (providing for “original exclusive jurisdiction” in
(1a)

2a
district court and one-year limitations period) is applicable to actions against Write-Your-Own (WYO) carriers
(“private insurers [which] issue flood insurance policies
[underwritten by the Government] in their own names”
as part of the National Flood Insurance Program (created by the Act), Campo v. Allstate Ins. Co., 562 F.3d 751,
754 (5th Cir. 2009)); and, if § 4072 is applicable, whether
its one-year limitations period bars relief. AFFIRMED.
I.
This action concerns the Act’s government program,
42 U.S.C. §§ 4071–72, which allows private insurance
companies (as WYO carriers) to issue and administer
flood-insurance policies underwritten by the Government. See Campo, 562 F.3d at 754. The required language
of the policy issued by WYO carriers is provided in the
Code of Federal Regulations in 44 C.F.R. pt. 61, App.
A(1). See Campo, 562 F.3d at 754 n.11. Lloyds participated in the program as a WYO carrier.
The above-referenced Standard Flood Insurance Policy, provided in the Code of Federal Regulations and utilized by WYO carriers participating in the National Flood
Insurance Program, states the “Requirements in Case of
Loss”. 44 C.F.R. Pt. 61, App. A(1), Art. VII (J). Among
those requirements, the policyholder “must . . . send [the
insurer] a proof of loss, which is [the insured’s] statement
of the amount [the insured is] claiming under the policy
[and is] signed and sworn to by [the insured]”. Id.
Ekhlassi insured his house in Houston, Texas, with a
National Flood Insurance Program policy from Lloyds
and a homeowner’s policy from Auto Club Indemnity
Company (ACIC). ACIC is not a party on appeal. An extensive rain-storm that caused flooding damaged

3a
Ekhlassi’s home on 25 May 2015, and he reported the loss
to Lloyds the next day.
On 28 May 2015, the Federal Emergency Management Agency (FEMA) issued a notice with a waiver for
National Flood Insurance Program policyholders, extending the time within which to file a proof of loss by 180
days for “all claims for the flood damage related to the
Texas and Oklahoma flooding” that began on 16 May 2015
and included Ekhlassi’s house. As stated in the notice,
policyholders had “a total of 240 days after the date of
loss” to file the proof of loss. The notice stated it did “not
. . . waive any other provisions of the [Standard Flood Insurance Policy]”.
One such non-waived provision in the policy is the oneyear statute of limitations. 44 C.F.R. Pt. 61, App. A(1),
Art. VII (R). That provision states: “If you do sue, you
must start the suit within one year after the date of the
written denial of all or part of the claim, and you must file
the suit in the United States District Court of the district
in which the covered property was located at the time of
loss.” Id. (emphasis added).
Ekhlassi had an adjuster inspect his house. After doing so, the adjuster obtained estimates from contractors
for the cost of repair, which exceeded $ 200,000. Lloyds
also inspected the house, and concluded flooding from the
25 May storm did not cause much of the claimed damage.
As a result, Lloyds’ subsequent 6 October 2015 letter
to Ekhlassi stated it had reviewed his adjuster’s report
and would process a claim for $ 3,768.25 upon receipt of a
“signed, dated and sworn to proof of loss”. The letter also
stated it was “denying payment for any building and contents items not subject to direct physical loss by or from

4a
flood” and “denying payment for all non-covered items located below the lowest elevated floor of [Ekhlassi’s
house], pursuant to the Standard Flood Insurance Policy”.
More to the point, the 6 October letter warned
Ekhlassi about the above-quoted, one-year limitations
period. As noted, this period is provided in the Act, 42
U.S.C. § 4072; its regulations, 44 C.F.R. § 62.22(a); and
the Standard Flood Insurance Policy, id. Pt. 61, App.
A(1), Art. VII (R). Notably, “strict compliance with the
provisions of federal flood insurance policies is required
because payments are drawn from the federal treasury”.
Shuford v. Fidelity Nat’l Prop. & Cas. Ins. Co., 508 F.3d
1337, 1343 (11th Cir. 2007) (citation omitted).
Ekhlassi submitted a proof of loss in late December
2015 for $ 274,940.05. In response, Lloyds’ 11 January
2016 letter to Ekhlassi acknowledged receipt of the proof
of loss, and rejected all but $ 3,768.25 (the amount offered
by the 6 October letter). The 11 January letter also instructed Ekhlassi to “refer to the denial letter dated October 6, 2015[,] for what Federal law allows under the
Standard Flood Insurance Policy and for reasons of denial for damages that have been claimed”.
In mid-January, Ekhlassi signed, inter alia, a different proof of loss for $ 3,768.25, but he disagreed with the
amount and stated his intent not to “conclude this claim
in any manner whatsoever”.
One year from the 11 January 2016 denial, Ekhlassi
filed this action in Texas state court on 11 January 2017.
He claimed, inter alia, breach of contract against Lloyds.
This action was removed to federal court on 24 April 2017.

5a
ACIC, the issuer of the homeowner’s policy, filed a
summary-judgment motion, which was granted in November 2017. (As noted, ACIC is not a party on appeal.)
Lloyds also filed a summary-judgment motion, which
was granted in January 2018. Ekhlassi v. Nat’l Lloyds
Ins. Co., 295 F. Supp. 3d 750 (S.D. Tex. 2018). The court
ruled Ekhlassi’s action was time-barred, based on its concluding the 6 October, not the 11 January, letter triggered the one-year limitations period. Id. at 755.
In early February 2018, pursuant to Federal Rule of
Civil Procedure 59(e), Ekhlassi moved to reconsider the
summary judgment awarded Lloyds. The March 2018 order denying the motion reiterated the court’s prior holding: the 6 October letter served as the denial triggering
the limitations period.
II.
As governed by the Act, this action concerns a WYO
carrier. Our court has previously, and comprehensively,
explained how the WYO program operates:
By enacting the National Flood Insurance Act of
1968, 42 U.S.C. § 4001 et seq., Congress established
the [National Flood Insurance Program] to make
flood insurance available on reasonable terms and
to reduce fiscal pressure on federal flood relief efforts. FEMA administers the [p]rogram. Within
[that] [p]rogram, the WYO program allows private
insurers to issue flood insurance policies in their
own names. Under this framework, the federal government underwrites the policies and private WYO
carriers perform significant administrative functions including “arrang[ing] for the adjustment,

6a
settlement, payment and defense of all claims arising from the policies.” WYO carriers must issue
policies containing the exact terms and conditions
of the [Standard Flood Insurance Policy] set forth
in FEMA regulations. Additionally, FEMA regulations govern the methods by which WYO carriers
adjust and pay claims. Although WYO carriers play
a large role, the government ultimately pays a
WYO carrier’s claims. When claimants sue their
WYO carriers for payment of a claim, carriers bear
the defense costs, which are considered “part of the
. . . claim expense allowance”; FEMA reimburses
these costs. Yet, if “litigation is grounded in actions
by the [WYO] Company that are significantly outside the scope of this Arrangement, and/or involves
issues of agent negligence,” then such costs will not
be reimbursable to the WYO carrier.
Campo, 562 F.3d at 754 (footnotes omitted).
WYO carriers are fiscal, not general, agents of the
United States. Van Holt v. Liberty Mut. Fire Ins. Co., 163
F.3d 161, 165 (3d Cir. 1998). As such, they administer the
National Flood Insurance Program by “strictly enforc[ing] the provisions set out by FEMA and” can not
“vary the terms of [the Standard Flood Insurance Policy]” without “express written consent” from the Government. See C.E.R. 1988, Inc. v. Aetna Cas. & Sur. Co., 386
F.3d 263, 267 (3d Cir. 2004). At least historically, if not
today as well, WYO carriers write far more policies than
does FEMA. See id. Pursuant to federal regulation, WYO
carriers are “sued in place of the FEMA [Administrator]”
in actions involving WYO policies. See id. at 267 n.4.
The summary judgment awarded Lloyds is reviewed
de novo. E.g., Borden v. Allstate Ins. Co., 589 F.3d 168,

7a
170 (5th Cir. 2009). “Summary judgment is appropriate
when the record demonstrates that there is no genuine
issue as to any material fact and that the movant is entitled to judgment as a matter of law.” Id. at 170–71 (internal quotation marks and citation omitted); see also Fed.
R. Civ. P. 56(a).
In his original opening brief on appeal, Ekhlassi challenged: the district court’s using Lloyds’ first claim-denial
letter (6 October 2015) to trigger the limitations period;
and, its denying his Rule 59(e) motion. But, pending oral
argument, we, sua sponte, ordered supplemental briefing
by the parties regarding “the effect of the federal court’s
original exclusive jurisdiction on whether the action is
barred by the limitations period”.
Accordingly, primarily at issue are: whether 42 U.S.C.
§ 4072 applies to a WYO action like the one at hand; and,
if it does, whether the statute’s requirement of “original
exclusive jurisdiction” in federal court causes this action
to be time-barred because it was not filed in, or removed
to, federal court within one-year of the claim’s denial, regardless of which of the two letters (6 October 2015 or 11
January 2016) was the operative denial. For the reasons
stated below, we hold: 42 U.S.C. § 4072 applies to actions
against WYO carriers; and, because Ekhlassi’s action did
not arrive in federal court within one-year of his claim’s
denial, it is time-barred. (This holding pretermits our addressing whether the first or second letter served as the
operative denial triggering the limitations period.)
A.
First addressed is whether, as urged by Ekhlassi, 28
U.S.C. § 1331 precludes the application of 42 U.S.C. §

8a
4072 in actions involving a WYO carrier; and, if not precluded, whether § 4072 applies.
1.
In his supplemental brief, Ekhlassi contends 28
U.S.C. § 1331 applies to this action to the exclusion of 42
U.S.C. § 4072. Needless to say, § 1331 is the grant of federal-question jurisdiction to district courts. 28 U.S.C. §
1331 (“The district courts shall have original jurisdiction
of all civil actions arising under the Constitution, laws, or
treaties of the United States.”). And, our court has previously held “an action for breach of a[ ] [Standard Flood
Insurance Policy], a policy issued pursuant to the [National Flood Insurance Program], satisfies § 1331 by raising a substantial question of federal law”. Borden, 589
F.3d at 172 (citations omitted).
But, of course, the application of federal-question jurisdiction pursuant to § 1331 does not preclude application of the very federal statute giving rise to the federal
interest at stake. In other words, merely because § 1331’s
jurisdictional grant applies does not mean § 4072’s statute
of limitations does not.
2.
Having determined § 1331 does not preclude application of § 4072, next considered is whether § 4072 applies
to actions involving WYO carriers. Ekhlassi contends §
4072 applies only to the FEMA Administrator, not WYO
carriers. That section provides:
In the event the program is carried out as provided
in section 4071 of this title, the Administrator shall
be authorized to adjust and make payment of any
claims for proved and approved losses covered by

9a
flood insurance, and upon the disallowance by the
Administrator of any such claim, or upon the refusal of the claimant to accept the amount allowed
upon any such claim, the claimant, within one year
after the date of mailing of notice of disallowance or
partial disallowance by the Administrator, may institute an action against the Administrator on such
claim in the United States district court for the district in which the insured property or the major
part thereof shall have been situated, and original
exclusive jurisdiction is hereby conferred upon
such court to hear and determine such action without regard to the amount in controversy.
42 U.S.C. § 4072 (emphases added); see also 44 C.F.R. §
62.22(a).
Without their providing underlying analysis, at least
two prior decisions by our court applied § 4072 to actions
against WYO carriers. Ferraro v. Liberty Mut. Fire Ins.
Co., 796 F.3d 529, 531 (5th Cir. 2015) (“The district court
had jurisdiction pursuant to 42 U.S.C. § 4072, which provides exclusive federal jurisdiction over litigation arising
out of the [National Flood Insurance Program].”); Constr. Funding, L.L.C. v. Fidelity Nat. Indem. Ins. Co., 636
F. App’x 207, 209 (5th Cir. 2016) (“The district court had
jurisdiction over this dispute under 42 U.S.C. § 4072,
which grants federal courts exclusive jurisdiction over
disputes between claimants and insurers in the [National
Flood Insurance Program].”); see also Cohen v. Allstate
Ins. Co., ___ F.3d ___, 2019 WL 2151314 (5th Cir. 2019)
(applying statute of limitations provided in § 4072 to action involving WYO carrier).
Our court is not alone in applying § 4072 to WYO actions. The sixth circuit reached a similar conclusion in

10a
Gibson v. Am. Bankers Ins. Co., 289 F.3d 943, 947 (6th
Cir. 2002) (“[Section] 4072 provides exclusive subject
matter jurisdiction over suits against a WYO insurance
company arising out of a disputed flood insurance claim”.
(citations omitted)); id. (“[T]his language mandates that
federal district courts have exclusive jurisdiction over
suits under [the National Flood Insurance Act]”. (citation
omitted)). The third circuit reached the same conclusion
in Van Holt, 163 F.3d at 167 (holding § 4072 and § 1331
applied). The second circuit did as well in Palmieri v. Allstate Ins. Co., 445 F.3d 179, 187 (2d Cir. 2006) (“holding
. . . § 4072 gives rise to jurisdiction over claims against
WYO companies”, but not reaching the application of §
1331).
Again, Ekhlassi, in his supplemental brief, contends §
4072 applies only to FEMA’s Administrator. Along that
line, the seventh circuit declined to apply § 4072 to a WYO
action. Downey v. State Farm Fire & Cas. Co., 266 F.3d
675, 680 (7th Cir. 2001) (“Because we see no good reason
to disregard not only the identity of the litigants but also
the fact that § 4072 is limited to suits against the [Administrator], we decline to adopt Van Holt’s reasoning.”). Rather, Downey applied jurisdiction under § 1331. Id. at
681–82. In doing so, Downey relied on § 4072’s not mentioning a WYO carrier. See id. at 679.
As quoted above, § 4072 only describes an action
against “the Administrator”, which the statute later defines as “the [FEMA] Administrator”. 42 U.S.C. §§ 4072,
4121(a)(6) (defining “Administrator”); see also Palmieri,
445 F.3d at 186; Van Holt, 163 F.3d at 166. But, § 4072’s
context is significant. Palmieri, 445 F.3d at 186; Van
Holt, 163 F.3d at 166. “It is a ‘fundamental canon of statutory construction that the words of a statute must be

11a
read in their context and with a view to their place in the
overall statutory scheme.’” Food & Drug Admin. v.
Brown & Williamson Tobacco Corp., 529 U.S. 120, 133
(2000) (quoting Davis v. Mich. Dep’t of Treasury, 489
U.S. 803, 809 (1989)). Accordingly, we “must . . . interpret
the statute ‘as a symmetrical and coherent regulatory
scheme’”. Id. (quoting Gustafson v. Alloyd Co., 513 U.S.
561, 569 (1995)).
That framework counsels in favor of applying § 4072
to WYO actions. In doing so, the third circuit’s analysis in
Van Holt is instructive:
For several reasons, a suit against a WYO company
is the functional equivalent of a suit against FEMA.
First, a WYO company is a fiscal agent of the
United States. 42 U.S.C. § 4071(a)(1). Second,
FEMA regulations require a WYO company to defend claims but assure that FEMA will reimburse
the WYO company for defense costs. 44 C.F.R. §
62.23(i)(6). Third, an insured’s flood insurance
claims are ultimately paid by FEMA. After a WYO
company depletes its net premium income, FEMA
reimburses the company for the company’s claims
payments. 44 C.F.R. Pt. 62, App. A, Art. IV(A).
When a WYO company’s proceeds from insurance
premiums exceeds its current expenditures, it must
pay the excess proceeds to the [Flood Insurance
Administration]. 44 C.F.R. Pt. 62, App. A., Art.
VII(B). Although a WYO company collects premiums and disburses claims, only FEMA bears the
risk under the flood insurance program. Thus, a
lawsuit against a WYO company is, in reality, a suit
against FEMA. Cf. Gowland [v. Aetna, 143 F.3d
951, 954–55 (5th Cir. 1998)], (refusing to estop WYO

12a
company due to relationship between company and
FEMA).
Van Holt, 163 F.3d at 166–67; see also Campo, 562 F.3d
at 754 (as quoted supra, describing how the WYO system
in the National Flood Insurance Program operates). Similarly, as stated in Palmieri, 445 F.3d at 186, in a WYO
action, the “suit is ‘against’ the [Administrator] in the colloquial sense, because it will draw down the federal financial resources he manages”. Accordingly, “a broader
reading of the statute is appropriate as to suits against
WYO companies”. Id.
Also instructive is 42 U.S.C. § 4053. See Spence v.
Omaha Indem. Ins., 996 F.2d 793, 795 n.12 (5th Cir. 1993)
(stating “[§ 4053] indicates congressional intent to place a
one year limitations period on actions under flood policies
issued by private [National Flood Insurance Program]
participants”). “When Congress created the [National
Flood Insurance Program,] it gave the program’s administrator two ways to execute the program and discretion
to choose between them.” Downey, 266 F.3d at 678. The
first way is through the industry program, pursuant to 42
U.S.C. §§ 4051–56, which “allows a pool of private insurers to underwrite flood insurance with financial backing
from the government”. Downey, 266 F.3d at 678 (citation
omitted). The alternative is the government program,
pursuant to 42 U.S.C. §§ 4071–72, which “allows the government to run the [National Flood Insurance Program]
itself—offering federally underwritten policies—with the
potential for administrative assistance from private insurers”. Downey, 266 F.3d at 678 (citation omitted). But,
the industry program ended in the 1970s, leaving only the
government program. Id.

13a
Nevertheless, § 4053 can inform our interpretation of
§ 4072. Palmieri explains:
The general design of the [National Flood Insurance] Act also evidences an intent to ensure that
claims involving the programs it creates are heard
in the federal courts. Section 4053, which applied to
the now-defunct Industry Program, vested exclusive jurisdiction in the federal courts over any action brought by an insured against a pool of private
insurers. See 42 U.S.C. § 4053. Section 4072 similarly provides for exclusive jurisdiction in the federal courts over any action brought by an insured
“against the [Administrator].” Id. § 4072. The statutory framework thus indicates not only that private insurers are to act as fiscal agents of the government in administering the federal program, but
also that all claims for benefits under a[ ] [National
Flood Insurance Act] policy, whether issued as part
of the Industry Program or the Government Program and whether sought from a private insurer or
the government, are to be litigated exclusively in
federal court.
Palmieri, 445 F.3d at 186.
Finally, we note Ekhlassi’s inconsistent positions regarding § 4072. His supplemental brief urges our holding
§ 4072 inapplicable to WYO carriers. But, despite his
newfound efforts to distance his action from the restrictions of § 4072, he cited § 4072 numerous times in his
original and reply briefs.
Even if prior decisions by our court had not applied
§ 4072 to actions against WYO carriers, we would be persuaded by the well-reasoned opinions from the second,

14a
third, and sixth circuits: in short, § 4072 applies to WYO
carriers.
B.
Having determined the applicability of § 4072, we turn
to whether we can affirm the district court on this alternative basis; and, if we can, whether § 4072’s application
renders Ekhlassi’s action time-barred. We answer both
questions in the affirmative.
1.
Ekhlassi asserts Lloyds waived the statute-of-limitations defense premised on this action’s not being filed in
federal court. But, even if Lloyds did not raise this precise
contention, we can still consider it.
In our court, “a well-settled discretionary exception to
the waiver rule exists where a disputed issue concerns ‘a
pure question of law’”. New Orleans Depot Servs. Inc. v.
Director, Office of Worker’s Comp. Programs, 718 F.3d
384, 388 (5th Cir. 2013) (en banc) (citations omitted); Atl.
Mut. Ins. Co. v. Truck Ins. Exch., 797 F.2d 1288, 1293 (5th
Cir. 1986) (“An issue raised for the first time on appeal
generally is not considered unless it involves a purely legal question or failure to consider it would result in a miscarriage of justice.” (citations omitted)).
The issue at hand is a question of law; there are no
disputed facts needing resolution. Moreover, this is an appeal from a summary judgment—a legal determination.
Further, we ordered supplemental briefing on this issue
and addressed it during oral argument. See New Orleans
Depot Servs. Inc., 718 F.3d at 388 (invoking the exception
to the waiver rule because, inter alia, “every party was

15a
provided an adequate opportunity to brief and argue the
issue before the . . . court”).
2.
Ekhlassi’s claim is time-barred. Lloyds’ first letter
was sent on 6 October 2015; its second, on 11 January
2016. Ekhlassi filed this action in state court on 11 January 2017, exactly one year from the second letter.
But, 42 U.S.C. § 4072 confers “original exclusive jurisdiction” on “the United States district court for the district in which the insured property . . . shall have been situated”. This action was not removed to district court until
24 April 2017, well over one year from either letter, and,
therefore, too late under the statute.
That Ekhlassi may have filed this action within one
year of an operative denial-letter does not save it, because
he filed in state court, when 42 U.S.C. § 4072 required the
action to have been filed in federal court within a year. In
other words, Ekhlassi did not timely file in the correct
court. (As noted, because of the above basis on which we
hold Ekhlassi’s claim time-barred, we need not reach
which of the two letters triggered the limitations period.)
III.
For the foregoing reasons, the judgment is
AFFIRMED.
HAYNES, Circuit Judge, concurring:
Because we are bound by precedent to apply § 4072 to
a WYO carrier, I concur in the judgment of the court in
this case. I write separately because, unlike the majority
opinion, I conclude that our precedent wrongly construes
§ 4072 in a counter-textual fashion.

16a
We should instead begin and end with the plain text
of the statute, which refers only to suits against the
FEMA Administrator. See 42 U.S.C. § 4072. As quoted in
the majority opinion, the statute clearly states, in relevant part, “the claimant . . . may institute an action
against the Administrator on such claim.”1 Id. (emphasis
added). In turn, the term “Administrator” is defined as
the “Administrator of the Federal Emergency Management Agency,” while “Write Your Own” describes “the
cooperative undertaking between the insurance industry
and the Federal Insurance Administration which allows
participating property and casualty insurance companies
to write and service standard flood insurance policies.”
Id. § 4004 (a) (3), (5).
The text is unambiguous; it simply does not mention
WYO carriers. If Congress had intended § 4072 to apply
to WYO carriers it could have added that to the provision.
See BedRoc Ltd., LLC v. United States, 541 U.S. 176, 183
(2004) (“The preeminent canon of statutory interpretation requires us to ‘presume that the legislature says in a
statute what it means and means in a statute what it says
there.’”) (brackets omitted) (quoting Conn. Nat’l Bank v.
Germain, 503 U.S. 249, 253–54 (1992)).
The Second Circuit, although agreeing that “§ 4072
does not expressly indicate that anyone other than the
[Administrator] may be sued,” nevertheless concluded
that the provision was ambiguous because the word
I note that the one-year statute of limitations would be applicable
here regardless of whether “Administrator” under § 4072 encompasses the WYO carrier because Paragraph VII.R. of the applicable
insurance policy issued to Ekhlassi states that “you must start the
suit within one year after the date of the written denial of all or part
of the claim.”

1

17a
“against” “could mean either ‘having as defendant’ or ‘opposed to’.” Palmieri v. Allstate Ins. Co., 445 F.3d 179, 186
(2d Cir. 2006). This seems to be searching for an ambiguity where one does not exist; taken at its ordinary meaning, the phrase “the claimant . . . may institute an action
against the Administrator,” seems clearly to contemplate
an insured suing the FEMA Administrator.
But even assuming there is some ambiguity in the
provision, I agree with the Seventh Circuit that although
WYO carriers stand in the shoes of the Administrator in
many respects, that does not compel the conclusion that
§ 4072 applies to WYO carriers. See Downey v. State
Farm Fire & Cas. Co., 266 F.3d 675, 680 (7th Cir. 2001).
The Seventh Circuit disagreed with the Third Circuit’s
conclusion that § 4072 applies to WYO carriers because
under FEMA regulations, WYO carriers are (1) fiscal
agents of the United States, (2) reimbursed by FEMA for
defense costs, and (3) required to pay excess proceeds to
the Federal Insurance Association, and FEMA ultimately pays the insurance claims. Id. at 679–80; see Van
Holt v. Liberty Mut. Fire Ins. Co., 163 F.3d 161, 166 (3d
Cir. 1998). The Seventh Circuit concluded that FEMA’s
financial obligations meant there was a federal interest,
and thus federal jurisdiction under 28 U.S.C. § 1331, but
the federal interest did not mean that a lawsuit against a
WYO carrier was in fact a lawsuit against FEMA.
Downey, 266 F.3d at 680–82. This reasoning makes the
most sense in light of the text of the provision itself. As
the Seventh Circuit pointed out, courts do not “typically
look to see who will be affected by a decision” for “jurisdictional purposes.” Id. at 680.

18a
Further, although WYO carriers are “placeholder[s]” for FEMA in many respects, id., they are independent in other respects. As Ekhlassi points out in his
supplemental briefing, FEMA regulations provide that
WYO carriers (1) “arrange for the adjustment, settlement, payment and defense of all claims arising from policies of flood insurance [they] issue[ ],” (2) use their “own
customary standards, staff and independent contractor
resources,” and (3) “are solely responsible for their obligations to their insured . . . such that the Federal Government is not a proper party defendant in any lawsuit arising out of such policies.” 44 C.F.R. § 62.23 (d), (e), (g).
Also, WYO carriers are fiscal agents, but not general
agents, of the United States. Id. § 62.23 (g); cf. Dwyer v.
Fidelity Nat. Prop. & Cas. Ins. Co., 565 F.3d 284, 289 (5th
Cir. 2009). It is one thing to have a cooperative relationship with a private insurance carrier, quite another to
transform that carrier into a governmental entity. We
should not assume Congress made that transformation
sub silentio.
Thus, while I respect and agree that we are bound by
precedent, I disagree that our precedent is correct. For
that reason, I concur in the judgment but not in the reasoning beyond citing precedent.

19a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
No. H-17-1257
ALI EKHLASSI,
Plaintiff,
v.
NATIONAL LLOYDS INSURANCE CO. and
AUTO CLUB INDEMNITY CO.,
Defendants.
Filed: January 9, 2018
MEMORANDUM AND OPINION
GRANTING NATIONAL LLOYDS’ MOTION FOR
SUMMARY JUDGMENT
Before LEE H. ROSENTHAL, Chief United States District Judge.
This case arises from a dispute over flood-insurance
payments for damage from a Houston, Texas storm in
May 2015. Ali Ekhlassi held two insurance policies: a
Texas Homeowners Deluxe Policy issued by the Auto
Club Indemnity Company; and a flood-insurance policy
with National Lloyds Insurance Company, underwritten
by the Federal Emergency Management Agency.
(Docket Entry Nos. 16–2, 16–3). The court previously

20a
granted Auto Club’s motion for partial summary judgment. (Docket Entry No. 17). National Lloyds now moves
for summary judgment on the basis that the statute of
limitations bars Ekhlassi’s claims.
Based on the motion, the record evidence, and the applicable law, National Lloyds’ motion for summary judgment is granted and Ekhlassi’s claims are dismissed, with
prejudice. The reasons are stated below.
I. Background
The relevant facts are undisputed. Between May 23 to
25, 2015, a severe storm caused heavy flooding in Houston. Ekhlassi suffered significant damage to his home
when five to six feet of floodwater filled his unfinished
basement garage for two days. Ekhlassi alleges a loss
amount of $274,940.05 for the flood damage. (Docket Entry No. 19 at 2). Ekhlassi had coverage under both the
Homeowners policy from Auto Club and the flood policy
from National Lloyds, before and during the storm. The
National Lloyds policy was part of the National Flood Insurance Program administered by the Federal Emergency Management Agency.
In May 2015, just after the flood, Ekhlassi reported
his losses to National Lloyds. A few days later, National
Lloyds sent insurance adjuster Jim Nemechek to inspect
Ekhlassi’s property. Nemechek estimated losses totaling
$3,768.15 for “flood loss clean-up and other covered damages,” but found that all other damages were excluded
under Ekhlassi’s policy. (Docket Entry No. 18 at 3).
On October 6, 2015, National Lloyds sent Ekhlassi a
letter stating that he had not yet submitted a proof of loss
form for his claim and that it could not process his claim
payment for $3,768.25 until it received his proof of loss.

21a
(Docket Entry No. 18, Ex. C). The letter informed
Ekhlassi that he had 240 days from the date of loss to provide the signed and sworn proof of loss and that National
Lloyds was denying payment for “any building and contents items not subject to direct physical loss by or from
flood” and “all non-covered items located below the lowest elevated floor of your post-FIRM elevated building.”
(Id.). On December 28, 2015, Ekhlassi provided the sworn
proof of loss to National Lloyds, stating an amount of
$276,190.05 less the deductible, for a total of $274,940.05.
On January 11, 2016, National Lloyds sent Ekhlassi a second letter rejecting the proof of loss, confirming that it
would pay only the previously determined amount of
$3,768.25, and referring Ekhlassi to the October 6, 2015
denial letter for the reasons. (Docket Entry No. 18, Ex.
E).
One year later, on January 11, 2017, Ekhlassi sued
National Lloyds and Auto Club, alleging breach of contract, violations of Chapters 541 and 542 of the Texas Insurance Code, and violations of the Deceptive Trade
Practices Act. TEX. INS. CODE § 541.060, 542.055–60;
TEX. BUS. COM. CODE § 17.46.
National Lloyds moved for summary judgment,
(Docket Entry No. 18), and Ekhlassi responded, (Docket
Entry No. 19). The summary judgment record evidence
includes a copy of Ekhlassi’s Standard Flood Insurance
Policy, Number 1547431881, a copy of the loss report, the
October 6, 2015 letter from National Lloyds to Ekhlassi,
Ekhlassi’s original petition, a copy of the January 11, 2016
letter from National Lloyds to Ekhlassi, an affidavit from
National Lloyds’ records custodian, and FEMA memorandum W-15022 granting a 180–day extension for policy

22a
holders to submit proof of loss. This record is analyzed
under the applicable legal standards.
II. The Legal Standards
A. Summary Judgment
“Summary judgment is required when ‘the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law.’ ” Trent v. Wade, 776 F.3d 368, 376 (5th Cir. 2015)
(quoting FED. R. CIV. P. 56(a)). “A genuine dispute of material fact exists when the ‘evidence is such that a reasonable jury could return a verdict for the nonmoving
party.’” Nola Spice Designs, LLC v. Haydel Enters., Inc.,
783 F.3d 527, 536 (5th Cir. 2015) (quoting Anderson v.
Liberty Lobby, 477 U.S. 242, 248 (1986)). “The moving
party ‘bears the initial responsibility of informing the district court of the basis for its motion, and identifying
those portions of [the record] which it believes demonstrate the absence of a genuine issue of material fact.’” Id.
(quoting EEOC v. LHC Grp., Inc., 773 F.3d 688, 694 (5th
Cir. 2014)); see also Celotex Corp. v. Catrett, 477 U.S. 317,
323 (1986).
If the burden of proof at trial lies with the nonmoving
party, the movant may satisfy its initial burden by showing an absence of evidence to support the nonmoving
party’s case. Fret v. Melton Truck Lines, Inc., No. 1750031, 2017 U.S. App. LEXIS 16912, at *5-6 (5th Cir.
Sept. 1 2017) (quoting Lindsey v. Sears Roebuck & Co.,
16 F.3d 616, 618 (5th Cir. 1994)). While the party moving
for summary judgment must demonstrate the absence of
a genuine issue of material fact, it does not need to negate
the elements of the nonmovant’s case. Coastal Agric.
Supply, Inc. v. JP Morgan Chase Bank, N.A., 759 F.3d

23a
498, 505 (5th Cir. 2014) (citing Boudreaux v. Swift
Transp. Co., 402 F.3d 536, 540 (5th Cir. 2005)). A fact is
material if “its resolution could affect the outcome of the
actions.” Aly v. City of Lake Jackson, 605 Fed. App’x 260,
262 (5th Cir. 2015) (citing Burrell v. Dr. Pepper/Seven Up
Bottling Grp., Inc., 482 F.3d 408, 411 (5th Cir. 2007)). “If
the moving party fails to meet [its] initial burden, the motion [for summary judgment] must be denied, regardless
of the nonmovant’s response.” Pioneer Exploration, LLC
v. Steadfast Ins. Co., 767 F.3d 503 (5th Cir. 2014).
“When the moving party has met its Rule 56(c) burden, the nonmoving party cannot survive a summary
judgment motion by resting on the mere allegations of its
pleadings.” Bailey v. E. Baton Rouge Parish Prison, 663
Fed. App’x 328, 331 (5th Cir. 2016) (quoting Duffie v.
United States, 600 F.3d 362, 371 (5th Cir. 2010)). The nonmovant must identify specific evidence in the record and
articulate how that evidence supports that party’s claim.
Willis v. Cleco Corp., 749 F.3d 314, 317 (5th Cir. 2014).
“This burden will not be satisfied by ‘some metaphysical
doubt as to the material facts, by conclusory allegations,
by unsubstantiated assertions, or by only a scintilla of evidence.’” Jurach v. Safety Vision, LLC, 642 Fed. App’x
313, 317 (5th Cir. 2016) (quoting Boudreaux, 402 F.3d 536,
540 (5th Cir. 2005)). In deciding a summary judgment motion, the court draws all reasonable inferences in the light
most favorable to the nonmoving party. Darden v. City of
Fort Worth, 866 F.3d 698, 702 (5th Cir. 2017).
B. The National Flood Insurance Program
The National Flood Insurance Program is a statutorily-created insurance program, administered by FEMA
and the Federal Insurance Administration, and underwritten by the U.S. Treasury. The terms of the insurance

24a
policy are established by FEMA. 44 C.F.R. §§ 61.4(b),
61.13(d). National Lloyds serves as a “Write Your Own”
insurer, a private insurance company that issues the
Standard Flood Insurance Policy “in the place and stead
of the Federal Insurance Administrator.” 44 C.F.R.
§ 61.13(f). National Lloyds acts as a fiscal agent of the
United States and may not alter, vary, or waive any provision of the Standard Policy. 42 U.S.C. § 4071(a)(1); 44
C.F.R. §§ 61.4(b), 62.23(c).
Under the Standard Policy, a policyholder cannot file
a lawsuit without first complying with all policy requirements. 44 C.F.R. § 61, app. (A)(1), art. VII(R). FEMA requires strict adherence to all conditions precedent, including submission of a sworn proof of loss. Marseilles
Homeowners Condo. Ass’n v. Fid. Nat’l Ins. Co., 542 F.3d
1053, 1057 (5th Cir. 2008); see also 44 C.F.R. § 61, app.
A(2), art. VII(J)(4). A claimant may challenge a denial of
coverage by filing suit within one year of receiving notice
of that denial. 42 U.S.C. § 4072 (“[T]he claimant, within
one year after the date of mailing of notice of disallowance
or partial disallowance by the Administrator, may institute an action against the Administrator on such claim”);
see also 44 C.F.R. Pt. 61, App. A(1), Art. VII(R) (“You
may not sue us to recover money under this policy unless
you have complied with all the requirements of the policy.
If you do sue, you must start the suit within one year after
the date of the written denial of all or part of the claim,
and you must file the suit in the United States District
Court of the district in which the covered property was
located at the time of loss. This requirement applies to
any claim that you may have under this policy and to any
dispute that you may have arising out of the handling of
any claim under the policy.”).

25a
The issue here is limitations, which turns on when
Ekhlassi received notice of the denial of his claim.
III. Analysis
If, as Ekhlassi claims, the January 11 letter was the
notice of denial, then his suit is timely filed. If, as National
Lloyds argues, the October 6 letter was the notice of denial, then the suit is untimely and barred by the statute of
limitations.
The October 6 letter made clear that it was a denial of
Ekhlassi’s claim. The letter stated, in part:
The Independent Adjuster’s final report indicates
there were no visible signs of covered flood damage
to the subfloor and flooring of the first elevated
floor. We are denying payment for any building and
contents items not subject to direct physical loss by
or from flood, pursuant to the Standard Flood Insurance Policy . . . .
...
In accordance with the Standard Flood Insurance
Policy, we are denying payment for all non-covered
items located below the lowest elevated floor of
your post-FIRM elevated building . . . .
(Docket Entry No. 18, Ex. C). The letter also stated that
“[i]f you do not agree with our decision to deny your
claim, in whole or in part, Federal law allows you to appeal that decision within 60 days of the date of this denial
letter.” The October 6 letter instructed Ekhlassi that National Lloyds had determined that it would cover his
losses in the amount of $3,768.25, but it could not process
his payment unless and until he submitted his sworn
proof of loss.

26a
In contrast, the January 11 letter states that the
amount of the claim was previously determined in the
prior letter: “Please be advised the below referenced
flood claim payment(s) were previously sent out under
separate cover. . . .” The letter rejected Ekhlassi’s attempt to increase his payment by submitting a proof of
loss for the full amount, and confirmed that National
Lloyds would only pay the previously determined
amount. In fact, the January letter referenced the October letter directly, stating: “Please refer to the denial letter dated October 6, 2015 for what Federal law allows under the Standard Flood Insurance Policy and for the reasons of denial for damages that have been claimed.”
(Docket Entry No. 18, Ex. E). The letter makes clear that
National Lloyds had already denied the claim in October.
This result is consistent with the case law. In Cole v.
N.H. Insurance, No. 1:10CV183–SA–DAS, 2012 U.S.
Dist. LEXIS 2513, at *31 (N.D. Miss. Jan. 9, 2012), the
court addressed a letter identical to the one at issue here:
Here, on May 14, 2009, Defendant sent Plaintiffs a
written denial letter. Specifically, the letter stated,
“We are denying all non-covered items located below the lowest elevated floor of your post-FIRM elevated building, pursuant to the Standard Flood
Insurance Policy[.]” The letter further stated, “If
you do not agree with your insurer’s decision to
deny your claim or any part of your claim, Federal
law allows you to appeal that decision within 60
days of the date of this denial letter.” Thus, May 14
is the date of mailing of the notice of “disallowance
or partial disallowance” (or as stated in the SFIP
notice that the claim has been “denied” in whole or

27a
part) for purposes of the running of the statute of
limitations.
(emphasis in original). Similarly, in Wing Building Holding Co., LLC v. Standard Fire Insurance, Co., No. 1:13–
CV–1007, 2015 U.S. Dist. LEXIS 17761 (N.D.N.Y. Feb.
13, 2015), the court compared two letters sent by the insurance company to the plaintiff. The first letter stated:
While we cannot make formal determinations on
your claim until we receive your Proof of Loss and
a waiver from FEMA, it is our understanding from
the Independent Adjuster that you are looking for
coverage on items that are not covered under the
Standard Flood Insurance Policy such as mold, the
elevator’s related equipment, and foundation damage. We would be required to deny any damage
from mold, moisture and/or mildew . . . . We would
be required to deny damage to the elevator’s related equipment . . . .
Cleaning invoices from Insulate & Accessorize
Company for $17,300 were submitted for consideration. Invoices 4701 and 4714 are not itemized; contain duplicate charges and non-covered items such
as contents and manipulation. We would be required to deny coverage for contents manipulation
....
Id. at 3 (emphasis in original). By contrast, the second letter stated:
We are denying payment for elevator and waste
management invoices for contents located in the
basement and all other non-covered items located
in the basement . . . .

28a
We are denying payment for any pre-existing damages and damage from mold . . . .
. . . we are hereby complying with the Standard
Flood Insurance Policy’s requirement regarding
payment or rejection of the insured’s Proof of Loss
within 60 days of its being filed by the insured. We
have received a signed proof of loss in the amount
of $115,374.00. We are accepting $12,373.21 of the
Proof of Loss and are rejecting $103,000.79 . . . .
If you do not agree with our decision to deny your
claim or any part of the claim, Federal law allows
you to appeal the decision within 60 days of the date
of this denial letter.
Id. at *4 (emphasis in original). The court explained that
the difference in the two letters was “self-evident.” Id.
The first letter repeatedly used “conditional language” to
signify “a possible or likely future determination”; the
second letter “definitively states” the outcome of the
claims and refers explicitly to the letter itself as a “denial
letter.” Id. The second letter was the denial of the insurance claim at issue and the point at which the statute of
limitations began to run.
The same is true here. The October 6 letter makes
clear that National Lloyds was denying the majority of
Ekhlassi’s claim at that time. The letter refers to itself as
a denial letter. The statute of limitations began to run at
that point. Because Ekhlassi waited more than one year
to file suit, his claim is barred.
Ekhlassi cites two cases in support of his argument
that the January 2016 letter gave him notice, not the earlier letter. Both cases are distinguishable. In Qader v.

29a
FEMA, 543 F. Supp. 2d 558 (E.D. La. 2008), the court addressed the same issue, but noted that after Hurricane
Katrina, FEMA substantially modified the National
Flood Insurance Program to expedite claims, in part by
partially waiving the proof of loss requirement. With this
waiver, a policyholder who agreed with an adjuster’s estimate could settle a that claim without any proof of loss.
By contrast, the limited waiver in this case granted an extension of the time to file a proof of loss from 60 days to
240 days from the flood date. (Docket Entry No. 19–1 at
1). However, FEMA also made clear that “[b]y granting
this limited waiver and extension of the time period to
send a proof of loss, FEMA does not hereby waive any
other provisions of the [Policy], and all other terms and
conditions of the [Policy] remain in effect.” (Id.). The oneyear deadline to file suit remained. The second case, Kroll
v. Johnson, No. 14–2496, 2014 U.S. Dist. LEXIS 128597
(D.N.J. Sept. 15, 2014), applied the reasoning from Qadar
to an identical extension FEMA granted for Hurricane
Sandy. Unlike those cases, Ekhlassi’s proof of loss did not
appeal FEMA’s decision, but was a prerequisite to payment. In this case, FEMA denied Ekhlassi’s claim in October 2015 and simply required submission of the sworn
proof of loss before it could pay on the claim.
IV. Conclusion
For the reasons stated above, National Lloyds’ motion for summary judgment, (Docket Entry No. 18), is
granted. This case is dismissed, with prejudice.
SIGNED on January 9, 2018, at Houston, Texas.
s/ LEE H. ROSENTHAL
Lee H. Rosenthal
Chief United States District Judge

30a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
No. H-17-1257
ALI EKHLASSI,
Plaintiff,
v.
NATIONAL LLOYDS INSURANCE CO. and
AUTO CLUB INDEMNITY CO.,
Defendants.
Filed: March 14, 2018
ORDER DENYING THE PLAINTIFF’S MOTION
FOR RECONSIDERATION
Before LEE H. ROSENTHAL, Chief United States District Judge.
The plaintiff, Ali Ekhlassi, moves this court to reconsider its January 8, 2018 ruling granting the defendant,
National Lloyds, summary judgment and finding that the
statute of limitations barred Ekhlassi’s claim. The court
declines to do so.
The Federal Rules of Civil Procedure do not specifically provide for motions for reconsideration. See St. Paul
Mercury Ins. Co. v. Fair Grounds Corp., 123 F.3d 336,

31a
339 (5th Cir. 1997) (“[T]he Federal Rules of Civil Procedure do not recognize a general motion for reconsideration.”). A motion that asks the court to change an order
or judgment is generally considered a motion to alter or
amend under Rule 59(e). T-M Vacuum Products, Inc. v.
TAISC, Inc., 2008 U.S. Dist. LEXIS 54248, 2008 WL
2785636 at *2 (S.D. Tex. July 16, 2008). A Rule 59(e) motion “calls into question the correctness of a judgment.”
Templet v. HydroChem Inc., 367 F.3d 473, 478-79 (5th
Cir. 2004) (citing In re Transtexas Gas Corp., 303 F.3d
571, 581 (5th Cir. 2002)). A Rule 59(e) motion “‘must
clearly establish either a manifest error of law or fact or
must present newly discovered evidence’ and ‘cannot be
used to raise arguments which could, and should, have
been made before the judgment issued.’” Rosenzweig v.
Azurix Corp., 332 F.3d 854, 863-64 (5th Cir. 2003) (quoting Simon v. United States, 891 F.2d 1154, 1159 (5th Cir.
1990)). The court has “considerable discretion” in addressing a motion for reconsideration. Templey, 367 F.3d
at 479. Changing an order or judgment under Rule 59(e)
is an “extraordinary remedy” that courts should use sparingly. Id.; see also 11 WRIGHT & MILLER, FEDERAL
PRACTICE & PROCEDURE § 2810.1 at 124 (2d ed. 1995).
The Rule 59(e) standard “favors denial of motions to alter
or amend a judgment.” S. Constructors Group, Inc. v.
Dynalectric Co., 2 F.3d 606, 611 (5th Cir. 1993). A motion
to reconsider may not be used to relitigate matters or to
raise arguments or present evidence that could have been
raised before the entry of the judgment or order. 11
WRIGHT & MILLER § 2810.1 at 127-28 (footnotes omitted).
The National Flood Insurance Policy statute and regulations make it clear that a plaintiff has one year from
“the date of the written denial of all or part of the claim”

32a
to file suit. 44 C.F.R. § 61, app.(A)(1), art. VII(R). The October 6, 2015 letter in this case was a written denial of part
of Ekhlassi’s claim. “We are denying payment for any
building and contents items not subject to direct physical
loss by or from flood, pursuant to the Standard Flood Insurance Policy. . . . In accordance with the Standard
Flood Insurance Policy, we are denying payment for all
non-covered items located below the lowest elevated floor
of your post-FIRM elevated building. . . .” (Docket Entry
No. 18, Ex. C). The letter also stated that “[i]f you do not
agree with our decision to deny your claim, in whole or in
part, Federal law allows you to appeal that decision
within 60 days of the date of this denial letter.” (Id.). This
express written denial of part of Ekhlassi’s claim began
the limitations period. This conclusion is buttressed by
the rule when, as here, the United States has waived immunity to suit, courts narrowly construe the waiver conditions. See Migliaro v. Fid. Nat’l Indem. Ins. Co., 880
F.3d 660, 667 (3d Cir. 2018) (“For the same reasons we
must narrowly construe the type of suit a policyholder
may bring against a WYO carrier, we must also narrowly
construe when a policyholder may bring suit.”).
The motion for reconsideration, (Docket Entry No.
22), is denied.
SIGNED on March 14, 2018, at Houston, Texas.
s/ LEE H. ROSENTHAL
Lee H. Rosenthal
Chief United States District Judge

33a
APPENDIX D
1. 42 U.S.C. 4053 provides:
Adjustment and payment of claims; judicial review;
limitations; jurisdiction
The insurance companies and other insurers which
form, associate, or otherwise join together in the pool under this part may adjust and pay all claims for proved and
approved losses covered by flood insurance in accordance
with the provisions of this chapter and, upon the disallowance by any such company or other insurer of any such
claim, or upon the refusal of the claimant to accept the
amount allowed upon any such claim, the claimant, within
one year after the date of mailing of notice of disallowance
or partial disallowance of the claim, may institute an action on such claim against such company or other insurer
in the United States district court for the district in which
the insured property or the major part thereof shall have
been situated, and original exclusive jurisdiction is
hereby conferred upon such court to hear and determine
such action without regard to the amount in controversy.
2. 42 U.S.C. 4071 provides:
Federal operation of program; determination by Administrator; fiscal agents; report to Congress
(a) If at any time, after consultation with representatives of the insurance industry, the Administrator determines that operation of the flood insurance program as
provided under part A cannot be carried out, or that such

34a
operation, in itself, would be assisted materially by the
Federal Government's assumption, in whole or in part, of
the operational responsibility for flood insurance under
this chapter (on a temporary or other basis) he shall
promptly undertake any necessary arrangements to
carry out the program of flood insurance authorized under subchapter I through the facilities of the Federal
Government, utilizing, for purposes of providing flood insurance coverage, either—
(1) insurance companies and other insurers, insurance agents and brokers, and insurance adjustment organizations, as fiscal agents of the United States,
(2) such other officers and employees of any executive agency (as defined in section 105 of Title 5) as the
Administrator and the head of any such agency may
from time to time, agree upon, on a reimbursement or
other basis, or
(3) both the alternatives specified in paragraphs (1)
and (2).
(b) Upon making the determination referred to in subsection (a), the Administrator shall make a report to the
Congress and, at the same time, to the private insurance
companies participating in the National Flood Insurance
Program pursuant to section 4017 of this title. Such report shall—
(1) state the reason for such determinations,
(2) be supported by pertinent findings,
(3) indicate the extent to which it is anticipated that
the insurance industry will be utilized in providing flood
insurance coverage under the program, and
(4) contain such recommendations as the Administrator deems advisable.

35a
The Administrator shall not implement the program of
flood insurance authorized under subchapter I through
the facilities of the Federal Government until 9 months
after the date of submission of the report under this subsection unless it would be impossible to continue to effectively carry out the National Flood Insurance Program
operations during this time.
3. 42 U.S.C. 4072 provides:
Adjustment and payment of claims; judicial review;
limitations; jurisdiction
In the event the program is carried out as provided in
section 4071 of this title, the Administrator shall be authorized to adjust and make payment of any claims for
proved and approved losses covered by flood insurance,
and upon the disallowance by the Administrator of any
such claim, or upon the refusal of the claimant to accept
the amount allowed upon any such claim, the claimant,
within one year after the date of mailing of notice of disallowance or partial disallowance by the Administrator,
may institute an action against the Administrator on such
claim in the United States district court for the district in
which the insured property or the major part thereof
shall have been situated, and original exclusive jurisdiction is hereby conferred upon such court to hear and determine such action without regard to the amount in controversy.

36a
4. 42 U.S.C. 4081 provides in pertinent part:
Services by insurance industry
(a) Contracting for services and facilities
In administering the flood insurance program under
this subchapter, the Administrator is authorized to enter
into any contracts, agreements, or other appropriate arrangements which may, from time to time, be necessary
for the purpose of utilizing, on such terms and conditions
as may be agreed upon, the facilities and services of any
insurance companies or other insurers, insurance agents
and brokers, or insurance adjustment organizations; and
such contracts, agreements, or arrangements may include provision for payment of applicable operating costs
and allowances for such facilities and services as set forth
in the schedules prescribed under section 4018 of this title.
*****
(c) Hold harmless
The Administrator of the Federal Emergency Management Agency shall hold any agent or broker selling or undertaking to sell flood insurance under this chapter harmless from any judgment for damages against such agent
or broker as a result of any court action by a policyholder
or applicant arising out of an error or omission on the part
of the Federal Emergency Management Agency, and
shall provide any such agent or broker with indemnification, including court costs and reasonable attorney fees,
arising out of and caused by an error or omission on the
part of the Federal Emergency Management Agency and

37a
its contractors. The Administrator of the Federal Emergency Management Agency may not hold harmless or indemnify an agent or broker for his or her error or omission.
*****
5. 42 U.S.C. 4121 provides in pertinent part:
Definitions
(a) As used in this chapter—
*****
(6) the term “Administrator” means the Administrator of the Federal Emergency Management Agency
***.
*****
6. 44 C.F.R. 62.22 provides:
Judicial review.
(a) Upon the disallowance by the Federal Insurance
Administration, a participating Write-Your-Own Company, or the servicing agent of any claim on grounds other
than failure to file a proof of loss, or upon the refusal of
the claimant to accept the amount allowed upon any claim
after appraisal pursuant to policy provisions, the claimant
within one year after the date of mailing by the Federal
Insurance Administration, the participating Write-YourOwn Company, or the servicing agent of the notice of dis-

38a
allowance or partial disallowance of the claim may, pursuant to 42 U.S.C. 4072, institute an action on such claim
against the insurer only in the U.S. District Court for the
district in which the insured property or the major portion thereof shall have been situated, without regard to
the amount in controversy.
(b) Service of process for all judicial proceedings where
a claimant is suing the Administrator of FEMA pursuant
to 42 U.S.C. 4071 shall be made upon the appropriate
United States Attorney, the Attorney General of the
United States, and the Federal Insurance Administrator
of the Federal Emergency Management Agency.
7. 44 C.F.R. 62.23 provides in pertinent part:
WYO Companies authorized.
(a) Pursuant to section 1345 of the Act, the Federal Insurance Administrator may enter into arrangements with
individual private sector property insurance companies
or other insurers, such as public entity risk sharing organizations. Under these arrangements, such companies
or other insurers may offer flood insurance coverage under the program to eligible applicants. Such WYO companies may offer flood coverage to policyholders insured
by them under their own property business lines of insurance, pursuant to their customary business practices, including their usual arrangements with agents and producers. WYO companies may sell flood insurance coverage in any State in which the WYO company is authorized
to engage in the business of property insurance. Other
WYO insurers may offer flood insurance coverage to their

39a
pool members insured by them under their own property
business lines of coverage, pursuant to their customary
business practices. These other WYO insurers may provide flood coverage in any State that has authorized the
other insurer to provide property coverage to its members. Arrangements entered into by WYO companies or
other insurers under this subpart must be in the form and
substance of the standard arrangement, titled “Financial
Assistance/Subsidy Arrangement.” Each year, at least
six months before the effective date of the “Financial Assistance/Subsidy Arrangement,” FEMA must publish in
the Federal Register and make available to the WYO
companies the terms for subscription or re-subscription
to the “Financial Assistance/Subsidy Arrangement.”
(b) Any duly authorized insurer so engaged in the Program shall be a WYO Company. (The term “WYO Company” shall include the following kinds of insurers: Public
entity risk-sharing organizations, an association of local
governments, a State association of political subdivisions,
a State-sponsored municipal league, and other intergovernmental risk-sharing pool for covering public entity
structures.)
*****
(d) A WYO Company issuing flood insurance coverage
shall arrange for the adjustment, settlement, payment
and defense of all claims arising from policies of flood insurance it issues under the Program, based upon the
terms and conditions of the Standard Flood Insurance
Policy.

40a
(e) In carrying out its functions under this subpart, a
WYO Company shall use its own customary standards,
staff and independent contractor resources, as it would in
the ordinary and necessary conduct of its own business
affairs, subject to the Act and regulations prescribed by
the Federal Insurance Administrator under the Act.
(f) To facilitate the marketing of flood insurance coverage under the Program to policyholders of WYO Companies, the Federal Insurance Administrator will enter into
arrangements with such companies whereby the Federal
Government will be a guarantor in which the primary relationship between the WYO Company and the Federal
Government will be one of a fiduciary nature, i.e., to assure that any taxpayer funds are accounted for and appropriately expended. In furtherance of this end, the
Federal Insurance Administrator has established “A
Plan to Maintain Financial Control for Business Written
Under the Write Your Own Program.”
(g) A WYO Company shall act as a fiscal agent of the
Federal Government, but not as its general agent. WYO
Companies are solely responsible for their obligations to
their insured under any flood insurance policies issued
under agreements entered into with the Federal Insurance Administrator, such that the Federal Government is
not a proper party defendant in any lawsuit arising out of
such policies.
*****
(i) To facilitate the adjustment of flood insurance claims
by WYO Companies, the following procedures will be
used by WYO Companies.

41a

(1) WYO companies will adjust claims in accordance
with general company standards, guided by NFIP
Claims manuals. The Arrangement provides that claim
adjustments shall be binding upon the FIA.
*****
(6) Pursuant to the Arrangement, the responsibility
for defending claims will be upon the Write Your Own
Company and defense costs will be part of the unallocated or allocated claim expense allowance, depending
on whether a staff counsel or an outside attorney handles the defense of the matter. Claims in litigation will
be reported by WYO Companies to FIA upon joinder
of issue and FIA may inquire and be advised of the disposition of such litigation.
*****
(k) To facilitate the operation of the WYO Program and
in order that a WYO Company can use its own customary
standards, staff and independent contractor resources, as
it would in the ordinary and necessary conduct of its own
business affairs, subject to the Act, the Federal Insurance Administrator, for good cause shown, may grant exceptions to and waivers of the regulations contained in
this title relative to the administration of the NFIP.
*****

